Nos. 20-688 and 20A100
IN THE

Supreme Court of the United States
_________
ORLANDO CORDIA HALL
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit

Execution Date: November 19, 2020 at 6:00 PM
_________
REPLY IN SUPPORT OF PETITION FOR
CERTIARARI AND EMERGENCY
APPLICATION FOR A STAY OF EXECUTION
_________
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004
MARCIA A. WIDDER
104 MARIETTA STREET NW,
SUITE 260
ATLANTA, GA 30303
(404) 222-9202

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com
ROBERT C. OWEN
LAW OFFICE OF ROBERT C.
OWEN, LLC
53 WEST JACKSON BLVD., SUITE
1056
CHICAGO, IL 60604

Counsel for Orlando Cordia Hall

IN THE

Supreme Court of the United States
_________

Nos. 20-688 and 20A100
_________
ORLANDO CORDIA HALL.,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit
Execution Date: November 19, 2020 at 6:00 PM
_________
REPLY BRIEF FOR PETITIONER
_________
Orlando Cordia Hall respectfully petitions for a writ
of certiorari to review the judgment of the U.S. Court
of Appeals for the D.C. Circuit, and requests an emergency stay of his execution so that he can litigate his
claims.
INTRODUCTION
The government does not contest that Respondent
Barr deliberately scheduled Mr. Hall’s execution during the peak of an ever-worsening global pandemic
that has so far killed nearly 250,000 Americans. It
does not contest that Mr. Hall’s counsel cannot fulfill
their professional obligations without putting
(1)

2
themselves and their families at grave risk. It does not
contest that conducting a clemency investigation in
light of health risks, quarantine orders, and other restrictions would be functionally impossible. And it
does not contest that Appellee Barr has the power to
reschedule Mr. Hall’s execution date at any time.
Instead, the government argues that Mr. Hall unduly delayed in raising the claims presented by this
Petition. No. While this is a familiar refrain from the
government when an execution looms, it does not
work here. Everyone agrees that Mr. Hall’s claims did
not arise until September 30 at the earliest. And the
only reason his claims were filed so close to his execution date is because the government gave him such
scant notice of his execution to begin with.
Nor are the government’s arguments regarding Mr.
Hall’s likelihood of success on his clemency claims
availing. Much of the government’s brief is directed to
arguing that rote compliance with procedure is all
that due process and federal law requires. But the
core of Mr. Hall’s argument is that he has been arbitrarily denied access to the clemency process in the
first place. Federal courts have stayed executions on
far less egregious facts. In fact, moments ago, another
federal court stayed the execution of another federal
prisoner raising precisely the same claims that Mr.
Hall presents here. Unless this Court acts, Mr. Hall
will be put to death without opportunity for review
despite another court having found the claims at issue
to merit preliminary relief. Montgomery v. Barr, et al.,
1:20-cv-3261-RDM (D.D.C. Nov. 19, 2020), ECF No. 19

3
(Montgomery Order).1 That would be manifestly unjust.
The district court found the facts of this case “troubling.” Pet. App. 15a. The lower courts’ decisions to
disregard these troubling facts on the basis that Mr.
Hall has been afforded “access” to the clemency process in the most technical sense warrants review, and
a stay.2
1

While Judge Moss distinguished Mr. Hall’s case on
the basis that the district court had “noted that [he]
had 13 years to prepare a petition,” Montgomery Order at 19, that holding disregarded substantial contrary record evidence and thus was manifestly erroneous. See infra section III. Notably, Judge Moss credited the fact that Ms. Montgomery’s “execution date
came as a complete surprise.” Montgomery Order at
19. So too here. Among the things the district court
(and Judge Moss) ignored about Mr. Hall’s situation
is that until 10 days before the government decided
to set his execution amid the pandemic, he had been
protected from execution for 13 years by an injunction
to which the government had consented. See Order
Roane v. Gonzales, No. 1:05-cv-02337-TSC, ECF No.
68.
2
The government contends that the relief Mr. Hall
seeks is more properly characterized as an “injunction” and therefore he must provide a “significantly
higher justification” than the typical standard for a
stay. Opp. 2 (quoting Respect Maine PAC v. McKee,
562 U.S. 996, 996 (2010)). But Respect Maine PAC relied on the fact that granting the requested relief

4
I.

HALL DID NOT UNDULY DELAY

As a threshold matter, the government concedes
that the courts below declined to deny Hall relief on
the basis of delay. Opp. 9. The government also
acknowledges (as did the district court below) that Mr.
Hall’s claims did not ripen until September 30 at the
earliest. Opp. 16; Pet. App. 14a. Nevertheless, the
government contends that Mr. Hall delayed in filing
his claims in this litigation, and that this constitutes
an independent bar to relief. Opp. 16-17. This is
wrong on the facts and the law.
First, the facts. The government’s sole basis for accusing Mr. Hall of “delay” is its apparent belief that
he should have filed suit within days of receiving notice of his execution. Id. In fact, he did. Mr. Hall filed
this litigation—a seven-count complaint supported by
seven detailed witness declarations and based on
“many events” that the district court acknowledged
did not “occur[ until] several days before it was filed,”
Pet. App. 14a—within 34 days after getting that notice.3 The panel did not disturb these findings; in fact,
would be a “judicial alteration of the status quo.” 562
U.S. at 996. Mr. Hall has sought the opposite relief: preserving the status quo (by keeping him alive)
while his claims for relief are pending.
3
The speed with which Mr. Hall filed stay petitions in
unrelated litigation, Opp. Br. 16-17, is irrelevant to
whether this case—which did not become ripe until after his execution was set—was delayed. Moreover, the
reason the injunction lasted for 13 years is not the result of delay by Mr. Hall, but rather because the

5
it did not even so much as acknowledge the government’s arguments about delay. Pet App 2a-7a.
Turning to the law, the government cites Bucklew v.
Precythe, 139 S. Ct. 1112 (2019) and Gomez v. U.S.
Dist. Ct., 503 U.S. 653 (1992) for its extraordinary contention that Mr. Hall’s supposed delay—which by the
government’s own concession is at most days’ long—
precludes relief. Opp. 16. In Bucklew, the plaintiff
waited until just 12 days before his execution to challenge the state’s lethal injection protocol, id. at 1120,
and received a last-minute stay from this Court. Bucklew v. Lombardi, 572 U.S. 1131 (2014). Only after five
more years of litigation on the same claims, including
two appeals and two “11th-hour” stays, did this Court
find further delay unwarranted. 139 S. Ct. at 1134.
And in Gomez, the delay was “more than a decade”
long. 503 U.S. at 654. he Court should not impose
such a harsh penalty in a death penalty case, where
the stakes could not be higher, particularly since the
government cites no case supporting its argument.4

government dragged its feet in introducing a new execution protocol.
4

That other prisoners have submitted clemency applications during the pandemic, Opp. 19, is likewise
irrelevant. Just as in pursuing a defense strategy,
what may have been adequate for one prisoner is not
de facto sufficient for another. And unlike Mr. Hall,
the prisoners the government points to had access to
resources to pursue clemency before the pandemic.
Dist. Ct. Dkt. 3 at 7. Further, the fact that they

6
II.

MR. HALL
REGULATE
FUNCTION.

DOES NOT SEEK TO
A PURELY EXECUTIVE

The government’s argument that Mr. Hall asks this
Court to regulate an exclusively executive function is
wrong. Opp. 18. No court below has made any such
finding, nor has Mr. Hall advanced such an argument.
All Mr. Hall seeks to vindicate his constitutionally
guaranteed right to meaningfully access the clemency
process with a guarantee of minimal due process in
the clemency procedure.5
III. THE DECISION BELOW IS MANIFESTLY
INCORRECT AND MR. HALL IS LIKELY
TO SUCCEED ON THE MERITS.
A.

Mr. Hall Has Been Denied Access To The
Clemency Process In Violation Of Due
Process.

The government asks this Court to misconstrue Mr.
Hall’s legal claims while ignoring the abundance of
factual evidence that he has provided in support. It
should decline that invitation.

submitted clemency applications does not mean those
applications were adequate.
5

While federal courts have avoided intruding into the
executive’s prerogative to make clemency decisions,
courts have had no trouble intervening to ensure
meaningful access to the clemency process. See e.g.,
Young v. Hayes, 218 F.3d 850 (8th Cir. 2000); Wilson
v. U.S. Dist. Ct. for N. D. Cal., 161 F.3d 1185, 1187
(9th Cir. 1998).

7
1. The Existence Of Procedure Does Not Guarantee Meaningful Access.
The government does not dispute that Woodard is
the “controlling Supreme Court precedent,” Pet. App.
17a, and that, “at a minimum,” clemency procedures
require “adequate notice and opportunity to be heard.”
Id. Rather, the government contends that because
Mr. Hall was permitted to file a clemency petition and
told it would be reviewed, his rights have been safeguarded. But “meaningful access” to clemency, which
this Court has required, Harbison v. Bell, 556 U.S.
180, 194 (2009), demands that the process afforded
beo more than “a meaningless ritual.” Douglas v. People of State of Cal,, 372 U.S. 353, 358 (1963). A man’s
life hangs in the balance, and through its choice to
schedule Mr. Hall’s execution in the midst of a raging
health crisis that prevents Mr. Hall’s counsel from
conducting any investigation, the government has “arbitrarily denied [him] any access to its clemency process.” Woodard, 523 U.S. at 289.
The government doubles down on its argument that
process, even devoid of value, is all that is required.
But what it has provided Mr. Hall stops far short of
even the “minimal” process afforded in Woodard. See
Pet. 21-22
The courts below also incorrectly concluded that Mr.
Hall could have filed his clemency petition before the
start of the pandemic or at any point since 2007, Pet.
App. 5a, 19a, which the government parrots. Opp. 2122.. This ignores the substantial record evidence that
(i) much of the evidence supporting Mr. Hall’s case for
mercy did not exist until recently; (ii) during the entire “thirteen year” period the panel suggested Mr.

8
Hall could have been developing his clemency claims,
he was protected by an injunction that prevented his
execution, and his counsel faced severe resource limitations that made a clemency investigation impossible; and (iii) clemency is by design a mechanism of last
resort, designed to be filed only after litigation has essentially ceased. See Pet. 22-24; see also 65 FR 48379,
48380 (“Because clemency is a remedy of last resort, a
capital defendant should file his clemency petition
only after the predictably available judicial proceedings concerning the case . . . are terminated . . . Accordingly, once an execution date has been set . . . the
defendant may file a request for reprieve”).
2. The Panel Manifestly Erred In Concluding
That Mr. Hall’s Statutory Right to Counsel
Pursuant To 18 U.S.C. ¶ 3599 Was Satisfied.
That Mr. Hall had the formality of appointed counsel does not mean that his counsel was able to provide
“meaningful” representation as is Mr. Hall’s right. 6
Indeed, the government does not contest any of the
key facts showing that in Mr. Hall’s case, his counsel
was arbitrarily prevented from adequately representing him in his clemency proceedings. It does not deny
that it scheduled Mr. Hall’s execution with the shortest notice period in the history of the modern federal
death penalty, and during a worsening global
6

The government’s argument that Mr. Hall was provided access to phone calls with counsel misses the
point. Opp. 22. Mr. Hall does not argue that he could
not speak with counsel, but that his counsel could not
conduct an adequate investigation necessary for a
meaningful clemency petition.

9
pandemic. Nor does it deny that while travel is required to conduct an adequate clemency investigation,
Mr. Hall’s appointed counsel suffer from health conditions that make travel during the pandemic unsafe.
This necessarily denies Mr. Hall “meaningful access
to the ‘fail-safe’ of our justice system.” Harbison, 556
U.S. at 194 (citation omitted). Indeed, another federal
court granted a stay to another condemned prisoner
on the very same grounds Mr. Hall has raised here.
Montgomery v. Barr, et al., 1:20-cv-3261-RDM (D.D.C.
Nov. 19, 2020), ECF No. 19.
B.

The Panel’s Order Would Allow Mr. Hall
To Be Executed In Accordance With An
Execution Protocol That Constitutes Ultra Vires Action In Violation Of The APA.

The government makes three arguments in opposition to Mr. Hall’s showing that the BOP’s action is ultra vires, but none of the arguments have any merit.
First, the Government asserts that Hall is precluded
from making the ultra vires claim because the district
court ruled against him on the issue and the ruling
was not appealed. Opp. 23. The government similarly
argued earlier, in a November 14, 2020 opposition
brief in a related proceeding, that the district court’s
ultra vires ruling was non-final and non-appealable
See Appellee Br. 44-45, In re Matter of the Fed. Bureau of Prisons’ Execution Protocol Cases, No. 20-5329
(D.C. Cir. Nov. 14, 2020). In response, the plaintiffs
in the consolidated action requested entry of partial
final judgment on the ultra vires claim and, on November 16, 2020, the district court granted the request. Order, In re Matter of the Fed. Bureau of Prisons’ Execution Protocol Cases, No. 19-mc-00145-TSC

10
(D.D.C. Nov. 16, 2020), ECF No. 315. It was only then
that the district court’s ruling became final and appealable. Therefore, issue preclusion does not apply
to Mr. Hall’s ultra vires claim. Indeed, the government made the very same preclusion argument below
and the panel rejected it by considering the merits of
the ultra vires issue rather than holding that it was
precluded. Pet. App. 5a-7a.
Second, the government relies on Judge Katsas’ concurrence in earlier execution protocol litigation as evidence that Mr. Hall’s “argument is wrong.” Opp. 23.
Judge Katsas was the only panel member who accepted the government’s interpretation of the U.S.
Marshal’s role under the protocol, and it is telling that
the panel below did not adopt his reasoning (after
making note of it). Pet. App. 6a. In any event, Judge
Katsas’ concurrence is not binding and there is good
cause for the Court to reach a different conclusion.
Mr. Hall pointed out in his opening brief that the unfettered ability of the BOP to alter the procedures in
the execution protocol—which, notably, the Government does not dispute— contradicts the FDPA’s express mandate that the U.S. Marshal shall supervise
the implementation of executions. It is undisputed
that, under the execution protocol, the BOP has the
power to strip the U.S. Marshal of any role at all,
which flies in the face of the FDPA’s plain language
and Congress’ selection of the U.S. Marshal as the sole
supervisor of executions.
Third, the government cites the panel’s erroneous
holding on the standard for preliminary injunctions
and stays, in which it required a link between every
claim at issue and irreparable harm. See Opp. 24-25.

11
There is no case law support for such a standard. The
panel cited Winter v. Natural Res. Def. Council, Inc.,
555 U.S. 7 (2008), but, as discussed in Mr. Hall’s opening brief, Winter does not impose such a requirement.
The government cites other cases for the unremarkable proposition that a movant must show that he
would suffer harm arising out of the claims in the
case. Here, Mr. Hall has demonstrated that, absent a
preliminary injunction or a stay, he will suffer irremediable injury as a result of his execution. See infra
section IV. No further showing on irreparable harm
is necessary.
IV.

WITHOUT A STAY, MR. HALL WILL
SUFFER IRREPARABLE HARM.

There is an unmistakable “likelihood of irreparable
harm if the judgment is not stayed.” Philip Morris
USA Inc. v. Scott, 561 U.S. 1301, 1302 (2010). Without
a stay, Mr. Hall will be executed amid violations of his
constitutional and statutory rights, this Court will be
stripped of jurisdiction to consider the petition. That
would constitute an “irremediable” harm. Ford v.
Wainwright, 477 U.S. 399, 411 (1986).
And “when, as in this case, ‘the normal course of appellate review might otherwise cause the case to become moot,’ * * * issuance of a stay is warranted.”
Garrison v. Hudson, 468 U.S. 1301, 1302 (1984)
(Burger, C.J., in chambers) (citing In re Bart, 82 S. Ct.
675, 676 (1962) (Warren, C.J., in chambers)). Because
“the balance of harms favors applicants,” id., the
Court should stay Mr. Hall’s execution.

12
V.

THE
BALANCE
OF
EQUITIES
STRONGLY FAVORS A STAY.

Failure to grant a stay will “have the practical consequence of rendering the proceeding moot” or otherwise cause irreparable harm to Mr. Hall. Mikutaitis
v. United States, 478 U.S. 1306, 1309 (1986) (Stevens,
J., in chambers). The government would not “be significantly prejudiced by an additional short delay,”
id.—particularly given that until just two months ago,
the government was content to permit a stay preventing Mr. Hall’s execution for 13 years to stand. Id. “In
light of these considerations,” this Court should “grant
the application.” Id.
CONCLUSION
For the foregoing reasons, and those discussed in the
Petition for Writ of Certiorari and Mr. Hall’s Emergency Application for a Stay of Execution, the Petition
and Emergency Application for a Stay of Execution
should be granted.
Respectfully submitted,
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com

MARCIA A. WIDDER

ROBERT C. OWEN

13
104 MARIETTA STREET
NW, SUITE 260
ATLANTA, GA 30303
(404) 222-9202

NOVEMBER 19, 2020

LAW OFFICE OF ROBERT C.
OWEN, LLC
53 WEST JACKSON BLVD.,
SUITE 1056
CHICAGO, IL 60604

